No. 20-843
In the Supreme Court of the United
__________________

States

NEW YORK STATE RIFLE & PISTOL
ASSOCIATION, INC., ET AL.,
Petitioners,
v.
KEVIN P. BRUEN, IN HIS OFFICIAL CAPACITY AS
SUPERINTENDENT OF NEW YORK STATE POLICE, ET AL.,
Respondents.
__________________
On Writ of Certiorari to the United States
Court of Appeals for the Second Circuit
__________________
BRIEF OF AMICI CURIAE THE LIBERAL GUN
CLUB AND COMMONWEALTH SECOND
AMENDMENT IN SUPPORT OF PETITIONERS

__________________

DAVID D. JENSEN
Counsel of Record
DAVID JENSEN PLLC
33 Henry Street
Beacon, New York 12508
(212) 380-6615
david@djensenpllc.com
Counsel for Amici Curiae
July 20, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . ii
INTEREST OF THE AMICI CURIAE . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

ii
TABLE OF AUTHORITIES
CASES
Commonwealth v. Cushard,
132 A.2d 366 (Pa. Super. Ct. 1957) . . . . . . . 16, 17
Commonwealth v. Kennedy,
64 Pa. D. & C.2d 771 (1973) . . . . . . . . . . . . . . . . 17
Commonwealth v. Miller,
305 A.2d 346 (Pa. 1973) . . . . . . . . . . . . . . . . . . . 17
Commonwealth v. Rice,
8 Pa. D. & C. 295 (1926) . . . . . . . . . . . . . . . . . . . 17
Evans v. Hughes,
56 Cr. App. R. 813 (1972) . . . . . . . . . . . . . . . . . . 22
R. v. Meade,
19 L. Times Repts. 540 (1903) . . . . . . . . . . . . . . 11
R. v. Sec’y of State for Transport ex parte
Factortame, Ltd. (No. 2),
[1991] 1 A.C. 603; [1990] 3 C.M.L.R. 375 (H.L.) . . 18
R. v. Jones,
1 Cr. App. R. 262 (1994) . . . . . . . . . . . . . . . . . . . 22
R. v. Sandbach ex parte Williams,
[1935] 2 K.B. 192 . . . . . . . . . . . . . . . . . . . . . . . . . 7
R. v. Smith,
2 Ir. Rep. 190 (1914) . . . . . . . . . . . . . . . . . . . . . 11
R. v. Soley,
[1703] 88 E.R. 935 (K.B.) . . . . . . . . . . . . . . . . . . 10

iii
Wrenn v. District of Columbia,
864 F.3d 650 (D.C. Cir. 2017). . . . . . . . . . . . . . . . 8
Young v. Hawaii,
992 F.3d 765 (9th Cir. 2021). . . . . . . . . . . . passim
STATUTES
1692 Mass. Acts ch. 18 . . . . . . . . . . . . . . . . . . . . 11, 12
1794 Mass. Acts ch. 26 . . . . . . . . . . . . . . . . . . . . . . . 14
Firearms Act, 1920 3Edw. VII c.18 . . . . . . . 20, 21, 22
Gun License Act, 1870 33 & 34 vict. c.57 . . 18, 19, 22
Haw. Rev. Stat. §134-9(c). . . . . . . . . . . . . . . . . . . . . . 4
Justices of the Peace Act 1361, 34 Edw. 3 c1 . . . . . . 6
N.Y. Penal L. §265.01 . . . . . . . . . . . . . . . . . . . . . . . . 4
Pa. Act of Mar. 31, 1860. . . . . . . . . . . . . . . . . . . . . . 16
Pistols Act, 1903 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
REVISED STATUTES OF THE COMMONWEALTH OF
MASSACHUSETTS (1836). . . . . . . . . . . . . . . 4, 14, 15
Statute Law (Repeals) Act 1969, 1969 c. 52 . . . . . . 19
Statute of Northampton, 2 Edw. 3 (1328) . . . . . . . 5, 7
The Prevention of Crimes Act, 1953,
1 & 2 Eliz. II c. 14 . . . . . . . . . . . . . . . . . . . . . . . . 22
OTHER AUTHORITIES
1 W. HAWKINS, A TREATISE OF THE PLEAS OF THE
CROWN (1716) . . . . . . . . . . . . . . . . . . . . . . . . . 6, 10

iv
2 W. HAWKINS, A TREATISE OF THE PLEAS OF THE
CROWN (7th ed. 1795) . . . . . . . . . . . . . . . . . . . . . 11
4 WILLIAM BLACKSTONE, COMMENTARIES . . 6, 7, 8, 17
Nathaniel J. Berry, Justice of the Peace Manuals in
Virginia Before 1800, 26 J. S. LEGAL HIST. 315
(2018). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
SIR ERNLEY BLACKWELL, REPORT OF THE
COMMITTEE ON THE CONTROL OF FIREARMS (Nov.
15, 1918) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20, 22
GEORGE BURN, THE JUSTICE OF THE PEACE, AND
PARISH OFFICER (18th ed. 1793). . . . . . . . . . . . . 10
WILLIAM WALLER HENING, THE NEW VIRGINIA
JUSTICE (1795) . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
HOME OFFICE, GUIDANCE FROM HOME OFFICE ON
FIREARMS ACT (Oct. 5, 1920) . . . . . . . . . . . . . . . 21
HOME OFFICE, MEMORANDUM FOR THE GUIDANCE OF
THE POLICE, FIREARMS ACT 1937 . . . . . . . . . . . . 21
HOME OFFICE, MEMORANDUM FOR THE GUIDANCE OF
THE POLICE, 1964 . . . . . . . . . . . . . . . . . . . . . . . . 21
HOME OFFICE, MEMORANDUM FOR THE GUIDANCE OF
THE POLICE, September, 1969 . . . . . . . . . . . . . . 21
JOYCE LEE MALCOLM, GUNS AND VIOLENCE: THE
ENGLISH EXPERIENCE (2002) . . . . . . . . . . . . 19, 21
Derek Phillips, Wrongs and Rights: Britain’s
Firearms Control Legislation at Work, 15 J. ON
FIREARMS & PUB. POL’Y 123 (2003) . . . . . . . . . . 18

v
Peter Power, An Honour and Almost a Singular
One: A Review of the Justices’ Preventive
Jurisdiction, 8 MONASH U. L. REV. 69 (1981) . . . 7
THE LAW COMMISSION, BINDING OVER (Law Com.
No. 222) (Feb. 1994) . . . . . . . . . . . . . . . . . . . . . . . 6
GEORGE WEBB, THE OFFICE AND AUTHORITY OF A
JUSTICE OF PEACE (1736) . . . . . . . . . . . . . . . . . . . 9

1
INTEREST OF THE AMICI CURIAE1
The Liberal Gun Club provides a voice for gunowning liberals and moderates in the national
conversation on gun rights, gun legislation, firearms
safety and the shooting sports. The Club serves as a
national forum for all people, irrespective of their
personal political beliefs, to discuss firearms
ownership, firearms use and the enjoyment of firearmsrelated activities—free from the destructive elements
of political extremism that sometimes dominate this
subject on the national scale. The Club actively
develops and fosters a variety of programs for the
purpose of firearms training and firearms safety
education, for both gun owners and non-gun owners
alike.
While the Club’s membership is primarily left-ofcenter individuals who also enjoy owning and using
firearms, its members come from every political
ideology—including but not limited to Democrat,
Independent, Libertarian, Democratic Socialist,
Republican and Green. The national Club has three
focuses: education, outreach and speaking out on
Second Amendment-related issues when the Club’s
unique perspective can bring value to the conversation.
For example, Club members in Virginia recently met
with liberal elected officials to discuss their concerns
about a package of laws that would have broadly
1

No counsel for any party authored this brief in whole or in part,
nor did any counsel or party make any monetary contribution
intended to fund the preparation or submission of this brief. All
parties’ counsel of record received timely notice of the intended
filing of this brief, and all consented to its filing.

2
restricted semiautomatic firearms and magazines. The
Club was the only voice that both came from a liberal
perspective and also embraced the right of the people
to keep and bear arms. Likewise, club members in
Oregon have met with left-of-center elected officials to
discuss their concerns about a proposed firearmsstorage law. Again, the Club served as the only voice
that both came from a perspective that was both liberal
and that embraced the right of the people to keep and
bear arms.
One of the Club’s core missions is to educate the
public about the importance of root cause
mitigation—that is, addressing the root causes of crime
and social problems, rather than the symptoms of those
problems. While there is debate about whether and to
what extent various gun restrictions will impact the
number of crimes that ultimately take place in society,
what is sadly clear is that any such impacts are
universally very small when compared with the gains
that would attend achieving a more just society—one
that ensures that all of its citizens have access to the
basic necessities of healthcare, housing and meaningful
opportunities.
Commonwealth Second Amendment, Inc.
(“Comm2A”) is a Massachusetts nonprofit corporation
dedicated to preserving and expanding the Second
Amendment rights of individuals residing in
Massachusetts and New England. Comm2A works
locally and with national organizations to promote a
better understanding of the rights that the Second
Amendment guarantees. Comm2A has previously
submitted amicus curiae briefs to this Court and to

3
state supreme courts, and it has also sponsored
litigation to vindicate the rights of law-abiding
Massachusetts gun owners. Comm2A receives and
responds to many queries from the public regarding
firearms laws and licensing in Massachusetts, and
particularly, regarding the imposition of restrictions on
Massachusetts firearms licenses—an issue that is
highly analogous to that presented in the case at bar.
New York’s “proper cause” standard, and the
discretion it allows for, substantially impacts both
organizations. Both organizations have members who
live in New York, and as such, members of both
organizations hold pistol licenses that carry “Target &
Hunting” (and similar) restrictions, which preclude
them from bearing arms for the core Second
Amendment purpose of self-defense. Moreover,
Comm2A is uniquely interested in issues surrounding
Massachusetts law, and as will be seen, some lower
courts have relied on misinterpretations of historical
Massachusetts laws to uphold broad preclusions on the
ability to bear arms.
SUMMARY OF ARGUMENT
In Young v. Hawaii, 992 F.3d 765 (9th Cir. 2021),
the majority of an en banc panel of the Court of
Appeals for the Ninth Circuit concluded that laws in
place at the time of the founding were tantamount to
broad preclusions on carrying firearms in public such
that the Second Amendment’s guarantee of “the right
of the people to keep and bear arms” did not protect the
bearing of arms in public. The Hawaii law at issue in
Young, like the New York law at issue in the case at
bar, broadly precluded the ability to bear arms in

4
public. See Haw. Rev. Stat. §134-9(c) (prohibiting
“carry concealed or unconcealed” in the absence of a
license); N.Y. Penal L. §265.01-B (prohibiting
“possess[ion of] any firearm”). This amici curiae brief
shows that the Young court’s conclusion is unsupported
and untenable. Contrary to the panel’s conclusion, the
historical laws it discussed did not stand as general
prohibitions on the peaceful carry of arms. Rather,
these laws specifically did not apply to law-abiding
citizens who did not create a threat to others.
Moreover, and setting this aside, the restrictions that
the United Kingdom placed on carrying firearms and
other weapons during the Twentieth Century bely any
claim that laws from the Fourteenth Century already
stood as broad preclusions on the bearing of arms.
ARGUMENT
In Young, the panel majority concluded that an
1836 Massachusetts law was tantamount to “a goodcause restriction” on carrying guns that “permitted
public carry, but limited it to persons who could
demonstrate their need to carry for the protection of
themselves, their families, or their property.” See
Young, 992 F.3d at 799 (citing REVISED STATUTES OF
THE COMMONWEALTH OF MASSACHUSETTS ch. 134, § 16
(1836)). The panel went on to reason that “[a] number
of states followed Massachusetts and adopted some
version of” this Massachusetts law, thereby also
adopting broad preclusions on carry. See id. at 799-800;
see also id. at 819. The Ninth Circuit
reasoned—without any citation—that the
Massachusetts law “did not require proof that the
person carrying was a threat to the complainant; it was

5
sufficient for the complainant to show that there was a
threat to the peace. . . .” Id. According to the panel,
“surety laws” like this one from Massachusetts
“show[ed] that carrying arms in public was not treated
as a fundamental right” during the country’s early
days. See id.
Similarly, the Ninth Circuit panel described the
Statute of Northampton, 2 Edw. 3, c. 3 (1328), and its
colonial and stateside equivalents, as “broad
prohibitions on the public carriage of firearms,” Young,
992 F.3d at 796. The panel’s reasoning was that early
Americans “brought with them the English
acquiescence to firearm limitations outlined in the
Statute of Northampton,” and that “restrictions on
firearms in public were prevalent in colonial law.” Id.
An examination of the historical record shows that
these conclusions are untenable. The colonial laws that
Young considered were not plucked from thin air, as
some sort of newly derived “Massachusetts model,” but
were instead enactments that codified established
parameters of English law in place at the time of the
founding. Specifically, these laws codified the
established parameters of the Statute of Northampton,
which—at least as it had developed—prohibited the
bearing of arms in terrorem populi as affray, as well as
the established parameters of “binding over”
individuals to prevent breaches of the peace and to
ensure their good behavior. Contrary to the conclusions
of the Young majority, neither the Statute of
Northampton nor the practice of “binding over” stood as
general prohibitions on bearing arms by the peaceful.

6
To the contrary, both acted to restrain only those who
were not peaceful.
Begin with the historical power to “bind over”
individuals in order to prevent breaches of the peace.
At common law, a justice of the peace had authority to
“bind all those to keep the peace, who in his presence
make any affray; or threaten to kill or beat another; or
contend together with hot and angry words; or go about
with unusual weapons or attendance, to the terror of
the people; and all such as he knows to be common
barretors.” 4 WILLIAM BLACKSTONE, COMMENTARIES
*251-52 (citing 1 W. HAWKINS, A TREATISE OF THE
PLEAS OF THE CROWN 126 (1716)). The Justices of the
Peace Act 1361, 34 Edw. 3 c. 1, expanded this power by
directing justices of the peace “to take of all them that
be not of good fame, where they shall be found,
sufficient surety and mainprise of their good behaviour
towards the King and his people,” id.
The Justices of the Peace Act and its statutory
power to “bind over” for good behavior—that is, to
require that individuals post surety to ensure their
good conduct—remains in force today, and is an area of
English law that “has been heavily influenced by
Blackstone.” THE LAW COMMISSION, BINDING OVER
(Law Com. No. 222) ¶ 2.4 (Feb. 1994). Blackstone
explained that magistrates could require good behavior
sureties “for causes of scandal, contra bonos mores
[against good morals], as well as contra pacem [against
the peace].” 4 WILLIAM BLACKSTONE, COMMENTARIES
*253. Accordingly, magistrates could:
bind over all night-walkers, eves-droppers; such
as keep suspicious company, or are reported to

7
be pilferers or robbers; such as sleep in the day,
and wake on the night; common drunkards;
whoremasters; the putative fathers of bastards;
cheats; idle vagabonds; and other persons, whose
misbehaviour may reasonably bring them within
the general words of the statute, as person not of
good fame[.]
Id. While this power was (and is) broad, it is not
unlimited, but instead requires “a probable ground to
suspect of future misbehaviour.” R. v. Sandbach ex
parte Williams, [1935] 2 K.B. 192, 196 (quoting 4
WILLIAM BLACKSTONE, COMMENTARIES *248). In this
connection, one commenter attempted to derive “five
partially overlapping categories of conduct considered
reprehensible enough to attract the jurisdiction.” See
Peter Power, An Honour and Almost a Singular One: A
Review of the Justices’ Preventive Jurisdiction, 8
MONASH U. L. REV. 69, 89-90 (1981). These ranged from
“causes for which a man may also be bound to keep the
peace” to “those who are of evil name or evil behavior
generally.” See id. And significantly, once bound over,
a person could forfeit their recognizance by,
pertinently, “going armed with unusual attendance, to
the terror of the people,” as well as “by speaking words
tending to sedition; or, by committing any of those acts
of misbehaviour, which the recognizance was intended
to prevent.” 4 WILLIAM BLACKSTONE, COMMENTARIES
*254.
Operating at the same time was the Statute of
Northampton, 2 Edw. 3, c. 3 (1328), which provided:
that no man great nor small, of what condition
soever he be, except the king’s servants in his

8
presence, and his ministers in executing of the
king’s precepts, or of their office, and such as be
in their company assisting them, and also [upon
a cry made for arms to keep the peace, and the
same in such places where such acts happen,] be
so hardy to come before the King’s justices, or
other of the King’s ministers doing their office,
with force and arms, nor bring no force in affray
of the peace, nor to go nor ride armed by night
nor by day, in fairs, markets, nor in the presence
of the justices or other ministers, nor in no part
elsewhere, upon pain to forfeit their armour to
the King, and their bodies to prison at the King’s
pleasure.
Id.; see also Wrenn v. District of Columbia, 864 F.3d
650, 659 (D.C. Cir. 2017). Blackstone explained that
“[t]he offense of riding or going armed, with dangerous
or unusual weapons, is a crime against the public
peace, by terrifying the good people of the land; and is
particularly prohibited by the Statute of Northampton.”
4 WILLIAM BLACKSTONE, COMMENTARIES *148-49. A
related crime was that of affray, which was “the
fighting of two or more persons in some public place, to
the terror of his majesty’s subjects.” Id. at *145. Riots,
routs and unlawful assemblies, in contrast, required at
least three individuals. See id. at *146.
Given that both the Justices of the Peace Act and
the Statute of Northampton date to the Fourteenth
Century, when language was somewhat different,
justice of the peace manuals from the time of our
country’s founding are particularly instructive on their
meaning. These shed light on the actual nature of these

9
laws, and particularly, on the actions they both
proscribed and left open. George Webb’s manual,
published in 1736, was the first manual that attempted
to integrate colonial laws with those of those of
England. See Nathaniel J. Berry, Justice of the Peace
Manuals in Virginia Before 1800, 26 J. S. LEGAL HIST.
315, 323 (2018). Webb explained that justices of the
peace “may apprehend any Person who shall go or ride
with unusual and offensive Weapons, in an Affray, or
among any great Concourte of the People, or who shall
appear, so armed, before the King’s Justices sitting in
Court, and may bind such Offender to the Peace, or
Good-behaviour; and if he refuses to be bound, may
commit him.” GEORGE WEBB, THE OFFICE AND
AUTHORITY OF A JUSTICE OF PEACE 13 (1736). Thus, as
it related to weapons, the power to bind over arose
when one engaged not in ordinary behavior, but in
extraordinary behavior—by riding “with unusual and
offensive Weapons,” or “among any great Concourte of
the People,” or “before the King’s Justices sitting in
Court.”
William Hening’s manual, published just after the
Revolution, similarly advised “that in some cases there
may be an affray, where there is no actual violence; as
where a man arms himself with dangerous and
unusual weapons, in such a manner as will naturally
cause a terror to the people.” WILLIAM WALLER HENING,
THE NEW VIRGINIA JUSTICE 17 (1795). Hening
explained that this conduct “is said always to have
been an offence at the common law, and is strictly
prohibited by statute,” after which he quoted the
Statute of Northampton. See id. at 17-18. Yet, Hening
cautioned that “no person is within the intention of the

10
law” if they sought to suppress rioters and disturbers
of the peace, and as well:
Nor unless such wearing be accompanied with
such circumstances as are apt to terrify the
people; from whence it seems dearly to follow,
that the wearing of common weapons, or having
the usual number of attendants, merely for
ornament or defence, where it is customarv to
make use of them, will not subject a person to
the penalties of this act.
Id. at 18 (citing 1 W. HAWKINS, A TREATISE OF THE
PLEAS OF THE CROWN 136 (1716)). However, if someone
ran afoul of the Statute of Northampton, then they
could not “excuse the wearing . . . by alledging that
such a one threatened him.” Id. (citing 1 W. HAWKINS,
A TREATISE OF THE PLEAS OF THE CROWN 136 (1716)).
Notably, George Burn’s manual, published in England
around the same time, described the Statute of
Northampton using similar, and often verbatim,
language. See GEORGE BURN, THE JUSTICE OF THE
PEACE, AND PARISH OFFICER 18 (18th ed. 1793)
(“persons of quality are in no danger of offending
against this statute, by wearing common weapons”).
English caselaw from the time is also consistent
with the understanding that bearing arms, alone, is not
an offense in the absence of circumstances that cause
terror to others. For example, in 1703 King’s Bench
reversed the rioting convictions of two men because the
indictment had not alleged that the men had acted “in
terrorem populi.” See R. v. Soley, [1703] 88 E.R. 935,
937 (K.B.). The court explained that “[i]f a number of
men assemble with arms, in terrorem populi, though no

11
act is done, it is a riot.” Id. at 936-37. For, “[t]hough a
man may ride with arms, yet he cannot take two
[others] with him to defend himself, even though his
life is threatened.” Id. at 937 (citing 2 W. HAWKINS, A
TREATISE OF THE PLEAS OF THE CROWN 20-21 (7th ed.
1795)). This understanding—that the peaceful bearing
of arms, without more, is not unlawful—continued into
the twentieth century. One particular example is R. v.
Smith, [1914] 2 Ir. Rep. 190, 204 (K.B.), where King’s
Bench reversed a conviction for carrying a loaded
revolver on a public road because there had been no
proof that the defendant had acted “in terrorem populi”.
The court explained that “[t]he words ‘in affray of the
peace’ in the statute, being read forward into the ‘going
armed,’ render the former words part of the description
of the statutable offence” and accordingly mandate “two
essential elements of the offence—(1) That the going
armed was without lawful occasion; and (2) that the act
was in terrorem populi.” Id. at 204; see also R. v.
Meade, 19 L. Times Repts. 540, 541 (1903) (statute
covered one who made himself “a public nuisance by
firing a revolver in a public place, with the result that
the public were frightened or terrorized”).
In this light, the actual import of the Massachusetts
laws that the Ninth Circuit panel relied upon is clear.
Shortly after its organization, in 1692, the Province of
Massachusetts Bay enacted a chapter of criminal laws.
See 1692 Mass. Acts ch. 18. That chapter included a
section that provided, in full:
That every justice of the peace in the county
where the offence is committed, may cause to be
staid and arrested all affrayers, rioters,

12
disturbers or breakers of the peace, and such as
shall ride, or go armed offensively before any of
their majesties’ justices or other their officers or
ministers doing their office or elsewhere by night
or by day, in fear or affray of their majesties’
liege people, and such others as shall utter any
menaces or threatening speeches ; and upon
view of such justice or justices, confession of the
party or other legal conviction of any such
offence, shall commit the offender to prison until
he find sureties for the peace and good
behaviour, and seize and take away his armour
or weapons, and shall cause them to be apprized
and answered to the king as forfeited; and may
further punish the breach of the peace in any
person that shall smite or strike another, by fine
to the king not exceeding twenty shillings, and
require bond with sureties for the peace, or bind
the offender over to answer it at the next
sessions of the peace, as the nature or
circumstance of the offence may be ; and may
make enquiry of forcible entry and detainer, and
cause the same to be removed, and make out hue
and crys after runaway servants, thiefs and
other criminals.
1692 Mass. Acts ch. 18, § 6. Viewed in the light of
actual history, this section served to codify three
related legal principles that would have been familiar
to colonial jurists—rather than cutting from whole
cloth to create new prohibitions. Specifically, the
section combined the common law power to bind over
in order to prevent breaches of the peace with the
statutory power, derived from the Justices of the Peace

13
Act, to bind over for good behavior. Then, the section
identified the essential conduct that the Statute of
Northampton prohibited—“rid[ing], or go[ing] armed
offensively before any of their majesties’ justices or
other their officers or ministers doing their office or
elsewhere by night or by day, in fear or affray of their
majesties’ liege people”—as a specific ground for
arresting and binding over offenders.
This continued to hold true when, shortly after the
Revolution in 1794, the Commonwealth of
Massachusetts repealed its 1692 law in favor of a new
enactment, which similarly provided:
that every Justice of the peace, within the
County for which he may be commissioned, may
cause to be staid and arrested all affrayers,
rioters, disturbers or breakers of the peace, and
such as shall ride or go armed offensively, to the
fear or terror of the good citizens of this
Commonwealth, or such others as may utter any
menaces or threatening speeches, and upon view
of such Justice, confession of the delinquent, or
other legal conviction of any such offence, shall
require of the offender to find sureties for his
keeping the peace, and being of the good
behaviour; & in want thereof to commit him to
prison, untill he shall comply with such
requisition: And may further punish the breach
of the peace in any person that shall assault or
strike another, by fine to the Commonwealth not
exceeding twenty shillings, and require sureties
as aforesaid, or bind the offender to appear and
answer for his offence, at the next Court of

14
General Sessions of the Peace, as the nature or
circumstances of the case may require.
1794 Mass. Acts ch. 26. Again, this statute combined
the common law power to bind over to prevent breaches
of the peace with the statutory power to bind over for
good behavior. And, the statute identified the conduct
that Northampton proscribed—“rid[ing] or go[ing]
armed offensively, to the fear or terror of the good
citizens of this Commonwealth”—as a specific ground
that would justify arresting and binding over offenders.
If anything, the legislature’s elimination of references
to “their majesties’ justices” and other “officers or
ministers” makes the section’s meaning clearer. The
conduct prohibited was being “armed offensively,” and
doing so “to the fear or terror of the good citizens.”
The Ninth Circuit panel in Young placed the bulk of
its reliance on a provision in a statutory compilation
that the legislature published in 1836, which had
sought to consolidate and revise the existing laws of
Massachusetts. See REVISED STATUTES OF THE
COMMONWEALTH OF MASSACHUSETTS v-vi (1836); see
also Young, 992 F.3d at 799-800, 819-20.2 Chapter 134
of these Revised Statutes addressed “proceedings to
prevent the commission of crimes,” and included
section 16, which provided:
If any person shall go armed with a dirk, dagger,
sword, pistol, or other offensive and dangerous
weapon, without reasonable cause to fear an
2

The court in Young erroneously cited the 1836 Revised Statutes
as “1836 Mass. Acts 750, ch. 134,” a reference to a nonexistent act
of the legislature. See Young, 992 F.3d at 799-800, 820.

15
assualt or other injury, or violence to his person,
or to his family or property, he may, on
complaint of any person having reasonable cause
to fear an injury, or breach of the peace, be
required to find sureties for keeping the peace,
for a term not exceeding six months, with the
right of appealing as before provided.
REVISED STATUTES OF THE COMMONWEALTH OF
MASSACHUSETTS, ch. 134, § 16. Notably, this section
identified Chapter 26 of the 1794 Acts, discussed above,
as its genesis. See id. But notwithstanding the
language quoted above, requiring “reasonable cause to
fear an injury, or breach of the peace,” the Young court
reasoned that the statute “did not require proof that
the person carrying was a threat to the complainant; it
was sufficient for the complainant to show that there
was a threat to the peace.” Young, 992 F.3d at 820
(emphasis added). Incredibly, the court provided no
citation for this conclusion, aside from averring that it
was “a standard that harkened to the Statute of
Northampton,” see id.—a proposition that is untenable,
based on the “in terrorem populi” requirement that
attended a violation of that law.
Counsel and amici are not aware of any legal
authorities that construed this provision of the 1836
Revised Statutes. However, it is significant that courts
construing an analogous provision in Pennsylvania did
indeed conclude that a complaining party needed to
show a threat that resulted in fear in order to invoke
the statute. The Pennsylvania law, enacted in 1860,
provided:

16
If any person shall threaten the person of
another to wound, kill or destroy him, or do him
any harm in person or estate, and the person
threatened shall appear before a justice of the
peace, and attest, on oath or affirmation, that he
believes that by such threatening he is in danger
of being hurt in body or estate, such person so
threatening as aforesaid shall be bound over,
with one sufficient surety, to appear at the next
sessions, according to law, and in the meantime
to be of his good behavior, and keep the peace
towards all citizens of this commonwealth. If
any person, not being an officer on duty in the
military or naval service of the state or of the
United States, shall go armed with a dirk,
dagger, sword or pistol, or other offensive or
dangerous weapon, without reasonable cause to
fear an assault or other injury or violence to his
family, person or property, he may, on complaint
of any person having reasonable cause to fear a
breach of the peace therefrom, be required to
find surety of the peace as aforesaid.
Pa. Act of Mar. 31, 1860, P.L. 427, § 6, quoted in
Commonwealth v. Cushard, 132 A.2d 366, 368 (Pa.
Super. Ct. 1957). Thus, the 1860 Pennsylvania law
required a “complaint of any person having reasonable
cause to fear a breach of the peace therefrom,” while
the 1836 Massachusetts law required a “complaint of
any person having reasonable cause to fear an injury,
or breach of the peace”—which was essentially the
same, but for the inclusion of “injury” along with
“breach of the peace.”

17
And significantly, courts construing the
Pennsylvania provision were uniform in their
conclusion that a complainant needed to face a real
threat that placed them in fear. In 1926, for example,
a lower court quashed an indictment because the
prosecutor, rather than “the persons against whom the
threats are alleged to have been made,” was the one
pursuing the action. See Commonwealth v. Rice, 8 Pa.
D. & C. 295, 297 (1926). In 1957, a superior court
upheld a lower court’s order binding a defendant over
because the defendant’s threat had reflected “a
malicious intent to do harm,” and it had “put [the
complainant] in fear of her safety.” Cushard, 132 A.2d
at 368. Finally, in 1973 the Supreme Court of
Pennsylvania upheld the Pennsylvania statute,
notwithstanding the argument that it violated the right
to a trial by jury. See Commonwealth v. Miller, 305
A.2d 346, 348-49 (Pa. 1973). Notably, three justices
concurred by analogizing to Blackstone’s discussion of
sureties, discussed above. See id. at 351 (Nix, J.,
concurring) (quoting 4 WILLIAM BLACKSTONE,
COMMENTARIES *252-53); see also Commonwealth v.
Kennedy, 64 Pa. D. & C.2d 771, 773-74 (1973) (quoting
4 WILLIAM BLACKSTONE, COMMENTARIES *252-53).
Thus, the authorities that construed analogous
language in the Pennsylvania statute found that this
language did not mark a substantial change from the
prior practice of requiring a complaint by someone who
had been threatened and feared an injury. And, there
is no authority that counsels a different reading of the
Massachusetts statute. The irreducible conclusion is
that, contrary to the Young court’s conclusion, the
Massachusetts statute did not stand as a general

18
prohibition on carrying guns, but instead, on doing so
in a manner that amounted to a threat that caused
others to fear injury.
Beyond all this, the history of firearms regulation in
the United Kingdom itself belies the claim that
historical laws like the Statute of Northampton and the
Justices of the Peace Act stood as general prohibitions
on bearing arms, or as requirements that individuals
have sufficient “reason” or “cause” for doing so. At the
outset, we note that English law protects
“constitutional” rights in a different manner than does
the law of the United States, for in England,
Parliament is free to repeal and take away rights, even
though they may be deemed “constitutional.” See
generally R. v. Sec’y of State for Transport ex parte
Factortame, Ltd. (No. 2), [1991] 1 A.C. 603; [1990] 3
C.M.L.R. 375 (H.L.) (appeal taken from Eng.). At
present, there is general consensus that the United
Kingdom has effectively repealed the arms guarantee
contained in Declaration of Rights 1689. See, e.g.,
Derek Phillips, Wrongs and Rights: Britain’s Firearms
Control Legislation at Work, 15 J. ON FIREARMS & PUB.
POL’Y 123, 123, (2003). What is significant, for present
purposes, is that it was legislative developments during
the Twentieth Century, not the Fourteenth Century,
that brought about this repeal.
Parliament’s first action that regulated the general
act of carrying of guns was its enactment of the Gun
License Act, 1870, which required “[e]very person who
shall use or carry a gun elsewhere than in a dwellinghouse or the curtilage thereof” to obtain a license. See
Gun License Act, 1870, 33 & 34 Vict. c. 57, ¶ 7. The

19
Gun License Act did not require an individual seeking
a license to meet any particular qualifications,
although it did provide that a license would become
null and void upon a conviction for certain offenses. See
id. at ¶ 11. Moreover, the Act’s requirements did not
apply to licensed hunters and to individuals on their
own occupied lands, meaning that it was the act of
carrying guns—in public, and for reasons other than
hunting—that gave rise to the requirement of a license.
See id. at ¶ 7(2)-(4). Suffice it to say that no one had
the understanding that either the Statute of
Northampton3 or the Justices of the Peace Act already
prohibited the act of carrying a gun. To the contrary, on
the floor of Parliament the bill’s sponsor had expressed
his desire to limit the carrying of revolvers, while
opponents of the bill had objected that it was
“‘unconstitutional,’ since it would disarm the country to
a great extent.” See JOYCE LEE MALCOLM, GUNS AND
VIOLENCE: THE ENGLISH EXPERIENCE 117-18 (2002).

3

The Statute of Northampton remained in force until 1969. See
Statute Law (Repeals) Act 1969, 1969 c. 52.

20
The next significant action4 was Parliament’s
enactment of Firearms Act, 1920, 3 Edw. VII c. 18,
which significantly expanded the scope of firearms
regulation by mandating that no one “purchase, have
in his possession, use, or carry any firearm or
ammunition” unless they held a valid firearms
certificate, see id. at ¶ 1(1). Notably, before adopting
this legislation Parliament had, in 1918, established a
committee to “consider[] the question of the control
which it is desirable to exercise over the possession,
manufacture, sale, import and export of firearms and
ammunition in the United Kingdom after the war.” SIR
ERNLEY BLACKWELL, REPORT OF THE COMMITTEE ON
THE CONTROL OF FIREARMS (Nov. 15, 1918) (hereinafter,
the “BLACKWELL REPORT”). At its outset, the
committee’s report had observed that “[t]he Gun
License Act of 1870 only makes it necessary for [one] to
obtain an Excise License before he can legally use or
carry a gun outside the curtilage of his dwelling-house,
but a license can be obtained by the simple formality of
buying one at a Post Office for the sum of 10s.” Id. at
¶ 1(1). So again, there was no contention that historical

4

Parliament had enacted Pistols Act, 1903, 3 Edw. VII c. 18, but
this only regulated the sale of handguns by generally requiring
purchasers to have obtained licenses under the Gun License Act,
albeit with a number of exceptions, see id. at ¶ 3. For example,
exceptions were provided for householders who “propose[d] to use
such a pistol only in his own house or the curtilage thereof” and to
individuals who averred that they were “about to proceed abroad
for a period of not less than six months.” See id. Aside from setting
a presumptive minimum age of 18 years for handgun possession
(with an exception for licensed individuals), see id. at ¶ 4, Pistols
Act, 1903 did not regulate the carry or use of handguns.

21
laws already stood as general prohibitions on using or
carrying guns.
Firearms Act, 1920 changed the status quo by
directing police officials to issue firearms certificates
only if they were “satisfied that the applicant is a
person who has a good reason for requiring such a
certificate.” Firearms Act, 1920, 3 Edw. VII c. 18, at
¶ 1(2). Initially, Home Office issued directions that
indicated that self-defense could be a sufficient “good
reason.” See MALCOLM, GUNS AND VIOLENCE, supra, at
149 (quoting HOME OFFICE, GUIDANCE FROM HOME
OFFICE ON FIREARMS ACT, 1920 p. 3 (Oct. 5, 1920)). But
over time, this waned. In 1937, Home Office’s
directions provided that “applications to possess
firearms for house or personal protection should be
discouraged on the grounds that firearms cannot be
regarded as a suitable means of protection and may be
a source of danger.” Id. at 156 (quoting HOME OFFICE,
MEMORANDUM FOR THE GUIDANCE OF THE POLICE,
FIREARMS ACT 1937). And by 1964, the instruction was
that “[i]t should hardly ever be necessary to anyone to
possess a firearm for the protection of his house or
person,” and “only in very exceptional cases.” Id. at 171
(quoting HOME OFFICE, MEMORANDUM FOR THE
GUIDANCE OF THE POLICE, 1964, p. 7). Finally, in 1969,
it would “never be necessary for anyone to possess a
firearm for the protection of his house or person.” Id.
(quoting HOME OFFICE, MEMORANDUM FOR THE
GUIDANCE OF THE POLICE, September, 1969, p. 22).
While later acts of Parliament would further
restrict the keeping and bearing of arms—ultimately,
among other things, banning handguns to the general

22
public—it was Firearms Act, 1920 that instituted a
license requirement that was tied to a “good reason”
requirement. As Parliament itself recognized in the
Blackwell Report, before 1920 nothing but the Gun
License Act, 1870 stood to prevent one from “legally
us[ing] or carry[ing] a gun outside the curtilage of his
dwelling-house,” and the Gun License Act required
nothing more than the payment of a nominal 10shilling license fee. BLACKWELL REPORT, supra, at
¶ 1(1). Plainly, Parliament understood that laws dating
back to and before the Fourteenth Century did not
stand as a bar.
Indeed, one other act of Parliament bears this out.
The Prevention of Crimes Act, 1953, 1 & 2 Eliz. II c. 14,
made it illegal to “ha[ve] . . . in any public place any
offensive weapon” unless one had “lawful authority or
reasonable excuse, the proof whereof shall lie on him,”
id. at s. 1(1). An “offensive weapon” was “any article
made or adapted for use for causing injury to the
person, or intended by the person having it with him
for such use by him.” Id. at s. 1(4). While self-defense
could potentially be a “reasonable excuse,” this was
only the case when there was “an imminent particular
threat affecting the particular circumstances in which
the weapon was carried,” rather than a threat that was
“constant or enduring.” See Evans v. Hughes, 56 Cr.
App. R. 813, 817 (1972). Moreover, a firearms
certificate did not amount to “lawful authority or
reasonable excuse.” See R. v. Jones, 1 Cr. App. R. 262,
266 (1994). Again, the fact that Parliament found it
necessary to enact this law in 1953 means that other
preexisting laws, such as the Statute of Northampton
and the Justices of the Peace Act, did not already stand

23
as bars on having weapons in public without a
“reasonable excuse.”
CONCLUSION
The Statute of Northampton, Justices of the Peace
Act and the common law power to bind over individuals
to prevent breaches of the peace were not general bans
on the peaceful carry of arms. Rather, broad
preclusions on bearing arms arose in the Twentieth
Century, both in England, as well as in the United
States. The existence of these historical laws is no
justification for rewriting the Second Amendment to
effectively exclude the right to bear arms today.
Respectfully submitted,
DAVID D. JENSEN
Counsel of Record
DAVID JENSEN PLLC
33 Henry Street
Beacon, New York 12508
(212) 380-6615
david@djensenpllc.com
Counsel for Amici Curiae

